Report No. D-2010-028                  December 15, 2009




     Rapid Acquisition and Fielding of Materiel Solutions
                        by the Navy
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ASN (RD&A)                    Assistant Secretary of the Navy (Research, Development,
                                and Acquisition)
C4I                           Command, Control, Computers, Communications, and
                                Intelligence
CNO                           Chief of Naval Operations
COMOPTEVFOR                   Commander, Operational Test and Evaluation Force
CVN PDR                       Carrier Vessel Nuclear Periscope Detection Radar
DAMTC                         Direct Attack Moving Target Capability
EMIO                          Expanded Maritime Intercept Operations
LRIP                          Low-Rate Initial Production
PEO                           Program Executive Officer
QRA                           Quick Reaction Assessment
RDC                           Rapid Deployment Capability
RDD                           Rapid Development and Deployment
SECNAV                        Secretary of the Navy
SNR HFIP                      Sub Net Relay High Frequency Internet Protocol
SSESM/SEI                     Small Ship Electronic Support Measure/Specific Emitter
                                Identification
TRL                           Technology Readiness Level
U.S.C.                        United States Code
WRBS                          Wireless Reachback System
                                 INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON, VIRGINIA 22202-4704 





                                                                       December 15,2009

MEMORANDUM FOR NAVAL INSPECTOR GENERAL

SUBJECT: Rapid Acquisition and Fielding of Materiel Solutions by the Navy
         (Report No. D-201 0-028)

We are providing this report for review and comment. We considered management
comments on a draft of this report when preparing the final repoli.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. The
comments from the Executive Director, Acquisition and Logistics, were not responsive to
Recommendations A.1.a and A.3 and were only partially responsive to
Recommendations A.2, B.1.a.1, B.2, and C. Additionally, we revised Recommendation
A.1.b. based on the Executive Director's comments. Therefore, we request additional
comments as indicated in the recommendations table on page ii by January 15,2010.

If possible, send your comments in electronic format (.pdf file only) to
audacm@dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the / Signed / symbol
in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the coutiesies extended to the staff. Please direct questions to me at (703)
604-9201 (DSN 664-9201).



                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
This Page Left Blank Intentionally
Report No. D-2010-028 (Project No. D2008-D000AE-0247.000)                     December 15, 2009


             Results in Brief: Rapid Acquisition and Fielding
             of Materiel Solutions by the Navy
What We Did
                                                          reaction assessments of materiel solutions
We reviewed the Navy’s process for rapidly
                                                          designated as rapid development and
acquiring and fielding materiel solutions to meet
                                                          deployment efforts. The quick reaction
urgent needs in support of the operations in
                                                          assessments were needed to provide an
Southwest Asia and to ensure the safety of naval
                                                          independent early evaluation of the operational
forces. Specifically, we evaluated the
                                                          effectiveness and suitability of materiel
effectiveness of Navy procedures for identifying
                                                          solutions before the solutions were deployed.
and validating urgent needs, acquiring materiel
solutions to meet those needs, and complying
with DOD requirements and acquisition                     What We Recommend
policies. Since 2004, the Navy has initiated 13           The Assistant Secretary of the Navy (Research,
rapid acquisition efforts with total funding of           Development, and Acquisition) should:
$104.8 million for research, development, test,            limit planned procurement under rapid
and evaluation, and $172.4 million for                       acquisition strategies to the low-rate initial
procurement.                                                 production of items to meet the immediate
                                                             urgent need, and document how the initial
What We Found                                                procurement quantities tie to the threat that
                                                             is driving the urgent needs request;
The Navy had adequate procedures for
identifying and validating urgent capability              	 provide guidance to Navy acquisition
needs and was following these procedures.                    officials for implementing streamlined
However, internal controls in the following                  acquisition strategies to meet urgent needs
areas still need improvement.                                and for the transition from urgent needs
                                                             acquisitions to programs of record; and
Navy Program Executive Officers, through their            	 revise policy to require the Commander,
approval of rapid acquisition strategies, did not            Operational Test and Evaluation Force, to
attempt to control initially procured quantities to          independently plan quick reaction
mitigate the risks of procuring large quantities             assessments for rapid development and
of not fully proven materiel solutions. Controls             deployment solutions to meet urgent needs.
over initially procured quantities were needed to
prevent significant acquisitions of equipment             Management Comments and
whose operational performance was not known.              Our Responses
                                                          The Navy agreed or partially agreed with
The Assistant Secretary of the Navy (Research,            recommendations for documenting how planned
Development, and Acquisition) did not provide             rapid acquisition procurement quantities tie to
specific guidance or lessons learned for                  the threat, providing enhanced guidance and
planning and executing acquisition strategies for         procedures for implementing rapid acquisition
fulfilling urgent needs requests. Acquisition             strategies, and involving operational testers in
managers need this specific guidance and                  assessing rapidly acquired items. The Navy
institutional knowledge to facilitate the timely          disagreed with recommendations for limiting
and effective planning and execution of urgent            quantities of items procured through rapid
needs acquisitions. Navy program sponsors did             acquisition. We request additional comments as
not request that the Commander, Operational               indicated in the table on page ii.
Test and Evaluation Force, perform quick
                                                      i
Report No. D-2010-028 (Project No. D2008-D000AE-0247.000)           December 15, 2009

Recommendations Table
Management                        Recommendations           No Additional Comments
                                  Requiring Comment         Required
Assistant Secretary of the Navy   A.1.a, A.1.b, A.2, A.3,   A.1.c, B.1.a.2, and B.1.b
(Research, Development, and       B.1.a.1, B.2, and C
Acquisition) 


Please provide required comments by January 15, 2010. 





                                              ii
Table of Contents

Introduction                                                                       1


       Objectives                                                                  1

       Background                                                                  1

       Review of Internal Controls                                                 3


Finding A. Limiting and Justifying the Quantities of Items Initially Procured 

to Satisfy Urgent Needs Requests                                                   4


       Recommendations, Management Comments, and Our Response                      9


Finding B. Improving Guidance on Planning and Executing Acquisition 

Strategies to Meet Urgent Needs Requests                                          13 


       Management Actions                                                         18 

       Recommendations, Management Comments, and Our Response                     18 


Finding C. Obtaining Quick Reaction Assessments to Support Rapid 

Development and Deployment Acquisitions                                           21


       Recommendation, Management Comments, and Our Response                      23 


Appendices

       A. Scope and Methodology                                                   24 

       B. Public Law on Rapid Acquisition                                         26 

       C. The Navy’s Urgent Needs Process                                         29 

       D. Improvements to the Navy’s Urgent Needs Process Since 1996              32 

       E. Acquisition Efforts Using the Urgent Needs Process                      35 

       F. Technology Readiness Levels                                             37 

       G. Lessons Learned From the Program Executive Officer for Command, 

              Control, Communications, Computers, and Intelligence                39 


Management Comments

       Department of the Navy                                                     43

This Page Left Blank Intentionally
Introduction
Objectives
The objective of the audit was to evaluate the overall management of the Navy’s process
for rapidly acquiring and fielding materiel solutions to meet urgent needs in support of
the operations in Southwest Asia and to ensure safe operation of naval forces.
Specifically, the audit evaluated the effectiveness of Navy procedures for identifying and
validating urgent capability needs, contracting and acquiring materiel solutions to meet
those needs, and complying with DOD requirements and acquisition policies. See
Appendix A for a discussion of the audit scope and methodology.

Background
Public Law on Rapid Acquisition
Public Law 107-314, “The Bob Stump National Defense Authorization Act for Fiscal
Year 2003,” December 2, 2002, requires in section 806, “Rapid Acquisition and
Deployment Procedures,” that the Secretary of Defense prescribe procedures for rapid
acquisition and deployment of items that are:

      currently under development by the DOD or available from the commercial
       sector, and
      urgently needed to react to enemy threats or to respond to significant and urgent
       safety situations.

Public Law 108-375, “The Ronald Reagan National Defense Authorization Act for Fiscal
Year 2005,” October 28, 2004, amended Public Law 107-314 through section 811,
“Rapid Acquisition Authority to Respond to Combat Emergencies,” giving the Secretary
of Defense authority to rapidly acquire equipment to respond to combat emergencies.
Specifically, section 811 states that if the Secretary of Defense determines that any
equipment is urgently needed to eliminate a combat capability deficiency that has
resulted in combat fatalities, the Secretary can use the procedures the section provides to
rapidly acquire and deploy needed equipment. Section 811 procedures allow the
Secretary of Defense to waive any provision of law, policy, directive, or regulation for
equipment requirements; research, development, test, and evaluation; and contracting.
Appendix B provides the full text of sections 806 and 811 of the respective public laws.

Navy Policy and Guidance
In 1996, the Navy established policy to react immediately to newly discovered or
potential threats and to respond to significant and urgent safety situations. This policy,
defined in Secretary of the Navy (SECNAV) Instruction 5000.2B, “Implementation of
Mandatory Procedures for Major and Non-Major Defense Acquisition Programs and
Major and Non-Major Information Technology Acquisition Programs,”




                                             1

December 6, 1996, allowed program managers to use tailored acquisition procedures that
streamlined and expedited requirements, acquisition, budgeting, and contracting through
a rapid deployment capability (RDC) process.

As defined, Navy program managers could use the RDC process to acquire commercial
or developmental products as materiel solutions for reacting to new enemy threats. The
Instruction provided a tailored process for initiating and managing development of
capabilities for rapid deployment. The tailored approach was designed to:

      streamline the dialogue among the requirements, the budgeting, and the
       acquisition management communities;
      expedite technical, programmatic, and financial decisions;
      expedite the procurement and contracting processes;
      provide oversight of critical events and activities; and
      ensure equipment is interoperable and capable of being integrated with other
       systems as urgency permits.

To implement the RDC process, the Assistant Secretary of the Navy (Research,
Development, and Acquisition) (ASN [RD&A]) assigned Program Executive Officers
(PEOs) and Program Managers the responsibility to plan and execute rapid acquisition
efforts. Since 1996, the Navy has updated and improved the RDC process through
updates to SECNAV Instruction 5000.2B, memoranda from the ASN (RD&A) and the
Chief of Naval Operations (CNO), and a SECNAV Notice. The SECNAV Notice, the
most recent of these updates, established a uniform process for responding to urgent
needs requests within the Navy and the Marine Corps.

SECNAV Notice 5000, “Department of the Navy Urgent Needs Process,” March 12,
2009, states that the Navy’s uniform process for meeting urgent needs synchronizes
abbreviated and overlapping requirements, resourcing, and acquisition processes to
address mission-critical warfighting capability gaps more rapidly than through traditional
processes. The Chairman of the Joint Chiefs of Staff Instruction 3170.01G, “Joint
Capabilities Integration and Development System,” March 1, 2009, and the DOD 5000
series of acquisition guidance define the traditional process. The SECNAV Notice
identifies three phases for filling capability gaps through the urgent needs process. The
three phases are needs identification and certification, solution strategy development and
resourcing, and solution execution. Appendix C provides a flowchart of the Navy’s
urgent needs process and provides descriptions of the three phases for addressing
capability gaps.

Appendix D highlights improvements the Navy has made in its policy and guidance for
meeting urgent needs since 1996. Additionally, Appendix E lists the 13 rapid acquisitions
to meet urgent needs that the Navy initiated between 2004 and the start of our audit in
August 2008. Total funding for the 13 acquisition efforts was $104.8 million for
research, development, test, and evaluation, and $172.4 million for procurement.




                                            2

Procedures for Identifying and Validating Urgent
Capability Needs
During the initial phase of the audit, we determined that the Navy’s procedures for
identifying and validating urgent capability needs were adequate and that the Navy staff
from the offices of the CNO, the ASN (RD&A), and the Fleet Forces Command were
following those procedures.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” January 4,
2006, requires DOD organizations to implement a comprehensive system of internal
controls that provides a reasonable assurance that programs are operating as intended and
to evaluate the effectiveness of the controls. We identified internal control weaknesses in
the Navy’s process for rapidly acquiring and fielding materiel solutions to urgent needs
requests. Navy policy and procedures allowed PEOs to approve risky solution strategies.
The strategies permitted managers for rapid acquisitions to exceed the quantities required
for low-rate initial production (LRIP) without documenting or justifying the excessive
quantities, heightening the risk of procuring large quantities of not fully proven materiel
solutions.

Additionally, ASN (RD&A) did not provide PEOs with specific guidance and procedures
for planning and executing acquisition solutions, and did not give the Commander,
Operational Test and Evaluation Force (COMOPTEVFOR), authority to conduct quick
reaction assessments (QRAs) of Navy rapid development and deployment (RDD)
acquisitions. Implementing our recommendations in Findings A, B, and C will ensure
acquisition officials limit initial procurements of not fully proven materiel solutions to the
quantities required to satisfy immediate urgent needs, adequately plan and execute
acquisition strategies responding to urgent needs requests, and authorize the
COMOPTEVFOR to plan and perform QRAs in support of RDD acquisitions. We will
provide a copy of the report to the senior official responsible for internal controls in the
Department of the Navy.




                                              3

Finding A. Limiting and Justifying the
Quantities of Items Initially Procured to
Satisfy Urgent Needs Requests
Navy PEOs did not control quantities initially procured to satisfy urgent needs requests.
Specifically, they could have tailored RDC acquisition strategies to mitigate the risks
associated with procuring large quantities of not fully proven materiel solutions. The
PEOs:

      allowed acquisition managers to procure quantities of items that exceeded
       quantities typically required for LRIP, where LRIP quantities are the quantities
       that are necessary to provide production items for initial operational test and
       evaluation, to establish an initial production base, and to permit an orderly
       increase in the production rate for the systems; and
      did not include the acquisition managers’ justification for the quantities of items
       planned for initial acquisition in any of the eight acquisition strategies we
       reviewed.

Legislation authorizing DOD organizations to rapidly acquire items to support urgent
needs specifies that rapid acquisition procedures should be used to procure only those
quantities established for LRIP of a system. The policy of limiting production ensures
that DOD organizations perform sufficient operational testing before making a substantial
investment in a system. Conformance with the policy allows organizations to ensure that
systems meet warfighter capability requirements without requiring substantial retrofits.
The PEOs approved RDC acquisition strategies without limiting initial production
quantities because the ASN (RD&A) program guidance did not emphasize that PEOs
should consider program risk, including technology maturity as measured by technology
readiness levels (TRLs) of items, in making decisions concerning the initial quantities of
items to procure. As a result, Navy PEOs committed to acquiring large quantities of
equipment before knowing how well the equipment performed, thereby increasing the
risk of not meeting warfighter capability requirements without costly retrofits.

Policy on Procurements
To limit program risk, public law, defense policy, and Navy policy limit the quantity of
items acquisition managers can initially procure in response to urgent needs requests.

Public Law
Provisions in section 806 of Public Law 107-314 limit the quantities of items acquisition
managers can rapidly procure in response to urgent needs requests. Section 806 states
that the quantity of items procured using rapid acquisition procedures may not exceed the
number established for LRIP. While section 806 sets quantity limitations on rapid
procurements, the Public Law gives the Secretary of Defense the authority to waive the
LRIP quantity limitation for urgently needed items. Specifically, section 811 of Public
Law 108-375 states that, in the case of equipment that the Secretary of Defense has


                                             4

determined is urgently needed to eliminate a capability deficiency that has resulted in
combat fatalities, the Secretary can authorize DOD officials to waive any law, policy, or
regulation regarding establishing requirements, performing test and evaluation, and
procuring the equipment.

Defense Policy
DOD has a long history of accepting high technology risk and suffering the
consequences. To minimize risk, DOD issued Instruction 5000.02, “Operation of the
Defense Acquisition System,” December 8, 2008. It defines LRIP as the minimum
quantity necessary to:

      provide production items for operational testing,
      establish an initial production base, and
      permit an orderly increase to full-rate production upon successful completion of
       operational testing.

DOD Instruction 5000.02 also states that acquisition officials must manage and mitigate
technology risk. This requirement allows less costly and less time-consuming systems
development and is especially relevant to meeting program cost and schedule goals. The
Instruction further requires that acquisition officials conduct objective assessments of
technology maturity and risk as a routine aspect of DOD acquisition through technology
readiness assessments, which include an assessment of TRLs. Appendix F lists the TRLs
for hardware, ranging from 1 to 9 in order of increasing technical maturity. The higher
the TRL a system demonstrates during testing, the lower the risk that the system will fail
to satisfy warfighter capability requirements when produced and fielded.

Navy Policy
ASN (RD&A) memorandum, “Rapid Acquisition Processing Update,” August 1, 2007,
established quantity limitations for acquisition efforts designated as RDCs and funded at
or above the level of a major system. The memorandum states that for those programs,
RDC quantities should be less than 10 percent of the total planned production quantities.
The memorandum also requires that Navy commanders include an explanation, in the
quantities required section of all urgent needs requests, regardless of funding level, of
how the quantities tie to the threat or urgency that is driving the urgent needs request.

SECNAV Notice 5000 defines an urgent need as an exceptional request from a Navy or
Marine Corps component commander for an additional warfighting capability critically
needed by operating forces conducting combat or contingency operations. Failure to
deliver the capability requested is likely to result in the inability of units to accomplish
their missions and may increase the probability of casualties and loss of life. The
SECNAV Notice states that processing and responding to urgent needs take precedence
over deliberate capability development. The SECNAV Notice further states that, under
the deliberate process, the traditional capability development process is used to provide
long-term capabilities. The traditional process, as defined in Chairman of the Joint
Chiefs of Staff Instruction 3170.01G requires that the Navy obtain Joint Requirement
Oversight Council approval of capability requirements through the Joint Capabilities


                                              5

Integration and Development System process. Under the urgent needs process, the Navy
can initiate developmental efforts and procurement of initial item quantities without first
going through the Joint Capabilities Integration and Development System process. The
Navy’s urgent needs process streamlines the requirements, resources, and acquisition
processes, but it is still subject to statutes and regulations. The Navy’s urgent needs
solution strategies include procuring RDCs, which are slightly modified commercial off-
the-shelf and nondevelopmental items, and RDDs, which are test prototype solutions
undergoing development and integration. SECNAV Notice 5000 states that RDC
solution candidates typically have a TRL of 8 or 9. A TRL of 8 means that the actual
system has been proven to work in its final form and under expected conditions. A TRL
of 9 means that the actual system has also been used under mission conditions. For
RDDs, the SECNAV Notice states that solution candidates typically have a TRL of 6 or
7. A TRL of 6 means that a prototype system has been demonstrated in a relevant
environment such as a laboratory simulation. A TRL of 7 means that the prototype
system has also been demonstrated in an actual operational environment.

Use of Quick Reaction Assessments
For decisions to field items acquired through RDC efforts, Navy milestone decision
authorities depend on the QRAs that COMOPTEVFOR performs. The QRA is a quick
assessment that examines specific operational considerations and capabilities of a system.
The QRA therefore does not provide the determination of a system’s operational
effectiveness and suitability that acquisition managers need to support full-rate
production. SECNAV Instruction 5000.2D, “Implementation and Operation of the
Defense Acquisition System and the Joint Capabilities Integration and Development
System,” October 16, 2008, states that QRAs do not obviate or replace the operational
testing that COMOPTEVFOR will perform for acquisition programs of record before
milestone decision authorities make full-rate production decisions.

Item Quantities and Justification
Navy PEOs allowed acquisition managers to procure quantities of items that exceeded
quantities typically required for LRIP, where LRIP quantities are the quantities necessary
to provide production items for initial operational test and evaluation, to establish an
initial production base, and to permit an orderly increase in the production rate for the
systems. Further, the Navy PEOs did not request that acquisition managers justify the
initial procurement of the increased quantities.*

Item Quantities
The table that follows shows that acquisition strategies for five of the eight RDC
acquisitions reviewed had RDC quantities approved by the PEO that exceeded 20 percent
of the expected total production quantities. Most significantly, three of the RDC
acquisitions had RDC quantities that were 50 to 100 percent of the expected total
production quantities. Total production quantities included quantities procured to meet

*
 As a frame of reference, section 2400, title 10, United States Code, states that for major systems
acquisitions, DOD must provide reasons when the LRIP quantity exceeds 10 percent of the total planned
production.


                                                   6

an urgent needs request and quantities to be procured after the RDC acquisitions’
transition to programs of record. Navy PEOs had not determined that the five RDC
acquisitions were urgently needed to eliminate a capability deficiency that had resulted in
combat fatalities, and therefore had not sought a waiver of LRIP quantity limitations from
the Secretary of Defense.

                  Quantities Approved in RDC Acquisition Strategies
            Program               Date of    Approved        Total                             RDC
                                   PEO         RDC        Production                          Quantity
                                 Approval    Quantity                                           as a
                                                                                              Percent
                                                                                              of Total
1.   Small Ship Electronic Support        March 31,             23                23             100.0
     Measure / Specific Emitter            2005
     Identification (SSESM/SEI)
2.   Carrier Vessel Nuclear               August 4,             11                11             100.0*
     Periscope Detection Radar             2009
     (CVN PDR)
3.   Automatic Identification           December 14,           154               304             50.7*
     System                                2006
4.   Expanded Maritime Intercept        December 15,           140               468              29.9
     Operations (EMIO) Biometrics          2006
     Identity Dominance Toolset
5.   Commercial Broadband                July 3, 2007           49               233              21.0
     Satellite Program
6.   Sub Net Relay High Frequency        August 17,             35               243              14.4
     Internet Protocol (SNR HFIP)          2007
7.   EMIO Wireless Reachback            May 25, 2008            20               139              14.4
     System (WRBS)
8.   Direct Attack Moving Target          October 1,           400              7,351              5.4
     Capability (DAMTC)                     2007

*For two of the eight RDC acquisitions, the CVN PDR and the Automatic Identification System, the RDC
quantity as a percent of total production may fall from 100 percent and 50.7 percent, respectively, because
the Navy is considering adding the equipment to additional ship classes. Also, for the EMIO WRBS, the
139 includes 14 funded by Army RDT&E.

As with normal programs of record, quantities in excess of LRIP requirements should not
be procured until the completion of a dedicated initial operational test and evaluation that
determines that the items are operationally effective and suitable. Initial procurements
exceeded quantities that are typically required for LRIP because the Navy issued
guidance that did not apply the LRIP quantity levels to RDCs not funded as major
systems. By applying the quantity levels only to RDCs funded as major systems, the
Navy did not effectively implement the LRIP quantity limitation in section 806 of Public
Law 107-314. Specifically, under the ASN (RD&A) criteria, none of the eight RDC
acquisitions we reviewed would have had their RDC acquisition quantities restricted to
quantities needed to satisfy the immediate urgent need because none of the RDC



                                                       7

acquisitions were funded at or above the level of a major system. Unlike the Navy
policy, section 806 of Public Law 107-314 did not limit the LRIP quantity restriction to
programs funded at or above the level of a major system.

Justification for Quantities
Acquisition managers for all eight RDC acquisition programs reviewed did not document
in their acquisition strategies the rationale for the quantities of items needed to satisfy the
immediate urgent need, nor did the managers of seven RDCs justify their procurement of
item quantities in excess of quantities typically required for LRIP. PEOs approved four
of the eight acquisition strategies before the ASN (RD&A) established the policy
requiring acquisition managers to justify planned RDC procurement quantities. The
PEOs for the remaining four programs that had acquisition strategies approved after
August 1, 2007, did not enforce the August 1, 2007, ASN (RD&A) memorandum
requiring RDC acquisition managers to document in their acquisition strategies the
rationale for the quantities of items they planned to procure in response to urgent needs.

Increased Program Risk
Navy acquisition officials increased the risk that quantities in excess of those needed to
satisfy the immediate urgent need will be procured and later require costly retrofits before
the items will fully satisfy warfighter capability requirements. Costly retrofits may be
needed because at least one of the eight RDCs was assessed at a TRL of 7, denoting that
a system prototype, rather than an actual system, was demonstrated in an operational
environment. At TRL 7, therefore, testers have not proven that the system technology
works in its final form and under expected conditions. Further, the DOD’s “Technology
Readiness Assessment Deskbook,” May 2005, does not recommend going beyond LRIP
until a system has at least attained a TRL of 8, which requires proving the technology in
final form and under expected conditions. We did not find TRL assessments for the other
seven RDCs. Officials increased risk through their reliance on QRAs that
COMOPTEVFOR conducted for the RDCs to support up to 100 percent of planned
program production. Unlike full testing of all effectiveness and suitability requirements
applicable to initial operational test and evaluation, QRAs test only selected
requirements. QRAs for five of the eight RDCs did not test whether the equipment met
all reliability, availability, and maintainability operational requirements. Properly used,
QRAs do assess operational considerations and capabilities of the system and thus help
decrease the risk in initial procurement quantities. For example, one QRA identified
problems with the interoperability of the equipment with other systems. Examples of
recommendations made in QRAs to program offices included making design
improvements to address interoperability, performing additional QRAs, and performing
dedicated initial operational test and evaluation as part of a program of record to
substantiate the QRA test results. However, QRAs are not intended to determine whether
the equipment items are operationally effective and suitable under mission conditions, as
required for TRL 8, so QRAs cannot be used to support procurement of total quantities.
The Navy would not need to use the urgent needs process to acquire items as RDCs if the
equipment had already been demonstrated to be operationally effective and suitable under
mission conditions and assessed at a TRL of 9. Accordingly, the Navy needs to limit



                                               8

initial RDC acquisition quantities to those needed to satisfy the immediate urgent need to
reduce program risks until COMOPTEVFOR has determined that the systems are
operationally effective and suitable under mission conditions.

Conclusion
The Navy’s implementation of the urgent needs process speeds up the initial acquisition
of items to satisfy urgent needs even if initial procurement quantities are limited to LRIP
quantities. The process is faster because the Navy does not have to obtain Joint
Requirement Oversight Council approval of the capability requirement through the Joint
Capabilities Integration and Development System process before initiating developmental
efforts and procuring initial item quantities. Navy PEOs, however, allowed acquisition
managers to procure initial items in excess of quantities that are typically required for
LRIP to satisfy the immediate urgent needs. As a result, Navy PEOs committed to
acquiring large quantities of not fully proven items of equipment, thus increasing
program risk. The QRAs that RDC milestone decision authorities depend on to make
initial procurement decisions provide only a quick assessment of the operational
considerations and capabilities of equipment. Because of the limitations inherent in
QRAs, milestone decision authorities are less certain that the items, when fielded, will
satisfy warfighter requirements. Thus, there is increased risk of costly, unplanned
retrofits of equipment to satisfy warfighter requirements. For this reason, staff in the
Office of the DOD Director of Operational Test and Evaluation stated that acquisition
managers for RDC programs should limit RDC production quantities until they know the
equipment’s proven capabilities. PEOs should enforce the ASN (RD&A) memorandum,
“Rapid Acquisition Processing Update,” August 1, 2007, which requires acquisition
managers to document, in the acquisition strategies, how the RDC procurement quantities
tie to those needed to directly respond to a documented threat. If the equipment is
urgently needed to eliminate a capability deficiency that has resulted in combat fatalities,
Navy acquisition officials should request a waiver from the Secretary of Defense,
authorizing them to rapidly acquire items in excess of LRIP quantity limitations in
accordance with section 811 of Public Law 108-375.

Recommendations, Management Comments, and Our Response

Revised Recommendations
As a result of management comments, we revised Recommendation A.1.b. to delete
references to a Public Law that limits rapid acquisition of items to 10 percent of total
planned production. This limitation applies only to major systems.

A. We recommend that the Assistant Secretary of the Navy (Research,
   Development, and Acquisition):

       1.	 Revise the Assistant Secretary of the Navy (Research, Development, and
           Acquisition) memorandum, “Rapid Acquisition Processing Update,”
           August 1, 2007, to require Program Executive Officers, when approving
           acquisition strategies for all rapid deployment capability acquisitions, to:



                                             9

               a.	 Limit the procurement of items to meet urgent needs request to
                   the number of items required for low-rate initial production in
                   accordance with section 806 of Public Law 107-314, “Rapid
                   Acquisition and Deployment Procedures,” December 2, 2002,
                   regardless of funding level.

               b.	 Require acquisition managers to provide written justification
                   when the planned procurement of rapid deployment capability
                   items exceeds the quantity required to support initial operational
                   test and evaluation, to establish an initial production base, and to
                   permit an orderly increase in the production rate for the systems.

Management Comments
The Executive Director for Acquisition and Logistics Management, responding for the
Assistant Secretary of the Navy (Research, Development, and Acquisition), disagreed.
He stated that the recommendations do not apply to the RDCs because none of the RDC
programs is a “major system” or a “major defense acquisition program,” as defined by
section 2400, section 2432 (“Selected Acquisition Reports”), subsection (5) of
section 2302 (“Definitions”), and section 2302d (“Major system: definitional threshold
amounts”), title 10, United States Code. Additionally, the Executive Director stated that
section 806 of Public Law 107-314 does not reference section 2400, title 10, United
States Code (10 U.S.C. 2400).

Our Response
The Executive Director’s comments were not responsive to Recommendation A.1.a. The
provisions of section 806 of Public Law 107-314, “Rapid Acquisition and Deployment
Procedures,” December 2, 2002, which state that the quantity of items of a system
procured using rapid acquisition procedures may not exceed the number established for
LRIP, are not limited to major programs and accordingly apply to all Navy RDC
programs. The Executive Director correctly stated that section 806 does not reference
10 U.S.C. 2400, or specify major systems when it places the LRIP limitation on the rapid
acquisition process. Implementing the LRIP limitation mandated in section 806 is
important to reducing acquisition risk. As stated in DOD Instruction 5000.02, use of
LRIP provides acquisition milestone decision authorities the opportunity to assess the
cost and benefits of a break in production, if a system has not demonstrated readiness to
proceed to full-rate production.

As a result of the Executive Director’s comments, we revised Recommendation A.1.b. to
delete references to 10 U.S.C. 2400, which sets a 10-percent limitation on LRIP for major
programs. Instead, we recommend requiring acquisition managers to provide written
justifications when planned procurement of RDC items exceeds the quantity required for




                                            10

initial operational testing, establishing an initial production base, and production ramp up.
Accordingly, we request that the Navy reconsider its position on Recommendation A.1.a
and respond to the revised Recommendation A.1.b in response to the final report.

               c.	 Enforce the requirement for acquisition managers to document
                   how the procurement quantities tie to the threat that is driving the
                   urgent needs request.

Management Comments
The Executive Director agreed, stating that the Navy recognizes the importance of
obtaining procurement quantities sufficient to meet the urgent need without creating
excess inventory. He added that the Navy will consider proper implementation policy
during the next update of SECNAV Instruction 5000.2D.

Our Response
The Executive Director’s comments were responsive to the recommendation.

       2.	 Revise Secretary of the Navy Instruction 5000.2D, “Implementation and
           Operation of the Defense Acquisition System and the Joint Capabilities
           Integration and Development System,” October 16, 2008, to reference the
           revised policy on rapid deployment capability acquisition quantities
           resulting from Recommendation A.1.

Management Comments
The Executive Director partially agreed. After reiterating his comments on
Recommendations A.1.a and A.1.b, he stated that the Navy does not plan to modify
SECNAV Instruction 5000.2D to include the policy revisions that would result from
implementing these recommendations. The Executive Director stated that the Navy was
reviewing and discussing the next revision of the SECNAV Instruction 5000.2D for
inclusion of appropriate material regarding tying the procurement quantities to the threat,
in accordance with Recommendation A.1.c.

Our Response
The Executive Director’s comments were responsive regarding the planned update of
SECNAV Instruction 5000.2D to reference the revised policy on rapid acquisition
resulting from implementing Recommendation A.1.c. The nonresponsive portions of the
Executive Director’s comments relate to his comments on Recommendations A.1.a and
A.1.b. We request that the Navy provide additional comments in response to the final
report, reconsidering its response to Recommendation A.1.a. and responding to the
revised version of Recommendation A.1.b.

       3.	 Direct Navy acquisition officials to seek a waiver of low-rate initial
           production quantity limitations from the Secretary of Defense
           authorizing them to procure rapid deployment capability equipment
           when the equipment is urgently needed to eliminate a capability



                                             11

           deficiency that has resulted in combat fatalities, in accordance with
           section 811 of Public Law 108-375, “Rapid Acquisition Authority to
           Respond to Combat Emergencies,” October 28, 2004.

Management Comments
The Executive Director disagreed, citing the same rationale that he provided in his
comments on Recommendations A.1.a and A.1.b. He disagreed that a waiver of LRIP
quantities is required.

Our Response
The Executive Director’s comments were not responsive. Section 811 of Public
Law 108-375 does not specify major systems or reference 10 U.S.C. 2400 when it
authorizes the Secretary of Defense to waive statutes, laws, directives, and policies in
order to rapidly acquire and field equipment to eliminate combat deficiencies that have
resulted in combat fatalities. Section 811 allows rapidly acquiring any type of equipment
that DOD needs to minimize future additional fatalities. We therefore believe that the
Navy should always seek the waiver available through section 811 from the Secretary of
Defense to more rapidly acquire RDC equipment quantities in excess of LRIP quantity
limitations when a capability deficiency has resulted in combat fatalities. Accordingly,
we request that the Navy reconsider its position on the recommendation and provide
comments on the final report.




                                           12

B. Improving Guidance on Planning and
Executing Acquisition Strategies to Meet
Urgent Needs Requests
The ASN (RD&A) did not provide PEOs with complete guidance and procedures for
planning and executing acquisition strategies for fulfilling urgent needs requests.
Specifically, SECNAV Instruction 5000.2D and SECNAV Notice 5000 do not contain
sufficient guidance and procedures for streamlining and implementing acquisition
strategies to manage the development of capabilities for rapid deployment. Because
PEOs lacked complete guidance and procedures for streamlining and implementing
acquisition strategies to meet urgent needs requests, the acquisition strategies for the
eight programs we reviewed varied significantly in the content and timeliness of PEO
approval. Further, ASN (RD&A) had yet to collect lessons learned from acquisition
managers with experience planning and executing acquisition strategies that could be
used as a reference for acquisition managers of current and future rapid acquisitions.
ASN (RD&A) staff stated that they had not emphasized developing formal guidance and
procedures for planning and executing acquisition strategies because of the limited
number of rapid acquisition solutions. The Navy had approved three from FY 2001
through FY 2005. As a result, PEOs and their staffs experienced unnecessary confusion
and delays in approving RDC acquisition strategies and readying rapid acquisition efforts
for the transition to programs of record.

Policies and Procedures
SECNAV Instruction 5000.2D and SECNAV Notice 5000 authorize Navy PEOs to use
streamlined acquisition approaches to rapidly acquire equipment necessary to meet
warfighter needs that the CNO has approved as urgent. This authority allowed PEOs to
streamline the policies and guidance in the DOD 5000 series of acquisition guidance
when planning and executing acquisition solution strategies (acquisition strategies) to
provide materiel for meeting urgent warfighter needs.

SECNAV Instruction 5000.2D
SECNAV Instruction 5000.2D requires that PEOs develop and approve acquisition
strategies that include these six planning elements:

      overall acquisition strategy and specific expediting measures;
      roles and responsibilities of program oversight officials;
      acquisition program milestones;
      plans for making the transition from acquisition effort to acquisition program of
       record, if appropriate;
      logistics and long-term maintenance support plans, including demilitarization and
       disposal; and
      test planning, including interoperability, integration, safety, and QRA.




                                           13

SECNAV Notice 5000
SECNAV Notice 5000 identifies the solution execution phase as the third phase for
addressing capability gaps through the urgent needs process. According to the SECNAV
Notice, the solution execution phase:

               begins with the authority to execute the solution and ends with
               the delivery of a solution meeting an acceptable level of capability,
               timeline, and quantities, as defined by the operating forces, and
               includes a handoff for sustainment and consideration within the
               deliberate process.

ASN (RD&A) plans to cancel SECNAV Notice 5000 in March 2010. ASN (RD&A) staff
explained that the ASN (RD&A) plans to review the policy after 1 year of
implementation, update the policy as necessary, and establish it in a
SECNAV Instruction.

Guidance on Planning and Executing Acquisition
Strategies to Meet Urgent Needs Requests
The ASN (RD&A) did not provide PEOs with guidance and procedures for streamlining
the planning and execution of acquisition strategies for fulfilling urgent needs requests.
Specifically, SECNAV Instruction 5000.2D did not provide streamlined guidance and
procedures for implementing the six planning elements required in an acquisition strategy
in the rapid acquisition process. Similarly, SECNAV Notice 5000 provided a definition
of the solution execution phase, but did not reference or contain guidance and procedures
for streamlining and implementing acquisition strategies to manage the development and
acquisition of capabilities for rapid deployment.

Because PEOs lacked guidance from the ASN (RD&A) on streamlining acquisition
strategies to meet urgent needs requests, the acquisition strategies for the eight programs
we reviewed varied significantly in content and timeliness of PEO approval. We believe
that the following testimonies from Naval Sea Systems Command acquisition staff
summarize the challenges that acquisition managers encountered when trying to use
available policy and guidance to formulate acquisition strategies to fulfill approved
urgent needs requests.

               It was difficult to determine what level of detail was required for the
               RDC strategy and no specific guidance was provided or found other
               than SECNAV Instruction 5000.2C.

               In short, there is little guidance available on how to manage an RDC
               program and it seems like we are being required to reinvent the wheel.

These quotes pertained to planning efforts in late 2006 and 2007. Subsequent issuance of
SECNAV Instruction 5000.2D to update SECNAV Instruction 5000.2C,
“Implementation and Operation of the Defense Acquisition System and the Joint




                                                  14

Capabilities Integration and Development System,” November 19, 2004, and SECNAV
Notice 5000 provided little additional guidance on how to streamline and implement the
solution execution phase for meeting urgent needs requests.

Content of Acquisition Strategies
Our review showed significant variation in the content and format of the eight acquisition
strategies we reviewed. Specifically, in reference to the six planning elements listed in
SECNAV Instruction 5000.2D:

      seven acquisition strategies that PEOs approved contained brief to detailed
       explanations of plans, and
      one acquisition strategy that the PEO had approved contained brief bulleted
       statements in PowerPoint slides.

To illustrate the variability of the content of acquisition strategies, we compared the
testing sections of the eight acquisition strategies to determine whether planning content
was consistent among acquisition strategies and whether the testing sections covered
interoperability, integration, and safety.

In comparing the testing sections of the acquisition strategies, we found that the planning
content varied significantly and that the strategies did not always address interoperability,
integration, and safety.

   	 The Commercial Broadband Satellite Program and the SNR HFIP had the most
      complete test strategies. Not only did they include interoperability, integration,
      and safety testing, but they also included general descriptions of how the testers
      would perform each test.
   	 The SSESM/SEI, the DAMTC, and the CVN PDR acquisition strategies included
      the required test planning for interoperability, integration, and safety testing, but
      did not include general descriptions of how the testers would perform each test.
   	 The Automatic Identification System and EMIO Biometrics Identity Dominance
      Toolset acquisition strategies contained the least complete test strategies. Neither
      of the strategies addressed integration or safety testing requirements.
      Additionally, the EMIO Biometrics Identity Dominance Toolset did not address
      interoperability.

We did not assess the testing section of the acquisition strategy for the EMIO WRBS
because the Joint Interoperability Test Command had exempted the effort from
interoperability and integration testing.

Timeliness of Approval of Acquisition Strategies
The timeliness of PEO approvals of acquisition strategies also varied greatly because the
ASN (RD&A) did not establish a set time frame for PEOs to approve or disapprove
acquisition strategies submitted by acquisition managers. PEO approval for the eight
acquisition strategies we reviewed varied from 11 to 991 days after the ASN (RD&A)
had approved initiating the acquisition of the materiel solution, with an average PEO


                                             15

approval time of 300 days. During the audit discussions with us, ASN (RD&A) staff
agreed that a set time frame for PEO approval of acquisition strategies is warranted, and
they stated that the time frame should be no more than 90 days after the ASN (RD&A)
approves the acquisition of a materiel solution under the RDC acquisition process.

Lessons Learned
ASN (RD&A) has yet to collect lessons learned from acquisition managers with
experience planning and executing rapid acquisition strategies. Lessons learned could be
used as a reference for managers of current and future rapid acquisitions. The PEO for
Command, Control, Computers, Communications, and Intelligence (C4I) had the most
experience with this type of acquisition. The PEO’s staff gave us a summary of lessons
learned in planning and executing the Automatic Identification System as an RDC effort.
General lessons learned in the summary included:

      providing acquisition managers with early and specific senior-level guidance;
      coordinating early and regularly with key stakeholders, including action officers
       in the requirements, acquisition, testing, and resource communities;
      working with the Fleet to demonstrate prototype performance even before
       beginning the actual acquisition efforts;
      exercising discipline in defining operational requirements to avoid “requirements
       creep”; and
      studying lessons learned from earlier “RDC-like” programs.

Additionally, PEO staff provided us with lessons learned on planning and developing
logistical support in acquisition strategies for RDC efforts.

Notable logistical lessons learned included:

      immediately creating and supporting an integrated logistics support strategy, and
      having logistics staff involved in contract development to ensure adequate
       logistical support for the initially installed materiel solutions.

Appendix G provides further details on lessons learned from the staff of the PEO for C4I.

During auditor discussions on January 15, 2009, ASN (RD&A) staff also agreed that
collecting and disseminating lessons learned would be helpful to PEOs and acquisition
managers currently planning and executing acquisition efforts in response to urgent needs
requests.

Emphasis by the Office of the Assistant Secretary
Because of the limited number of rapid acquisition solutions, ASN (RD&A) staff stated
that they had not emphasized developing detailed guidance and procedures for PEOs and
acquisition managers to use in streamlining the planning and execution of acquisition
strategies to meet urgent needs requests. The Navy had approved only three requests
from FY 2001 through FY 2005. ASN (RD&A) staff also had not collected lessons


                                               16

learned. Instead, ASN (RD&A) staff had worked with staff of the CNO to develop
administrative procedures for processing urgent needs requests. Specifically, on July 26,
2007, the ASN (RD&A) and the Deputy CNO (Integration of Capabilities and Resources)
issued a joint memorandum, “Navy Urgent Needs Process Implementation,” which
detailed procedures for preparing and approving urgent needs requests and provided
Component commanders with a template showing the desired format and content for
urgent needs request submissions. This joint memorandum and the ASN (RD&A)
memorandum, “Rapid Acquisition Processing Update,” provided guidance for preparing
and processing urgent needs requests. However, the memoranda did not fully meet the
intent of section 806 of Public Law 107-314, “Rapid Acquisition and Deployment
Procedures,” which also requires that DOD develop procedures for rapidly acquiring,
demonstrating, and deploying items to meet urgent needs requests. During discussions
with us on August 21, 2008, and January 15, 2009, ASN (RD&A) staff agreed that,
because eight additional acquisition efforts had begun in FY 2007, staff needed to
provide PEOs and acquisition managers with additional guidance and procedures for
streamlining and implementing acquisitions to meet urgent need requests.

ASN (RD&A) also had not emphasized providing guidance to PEOs on making the
transition from acquisition efforts designed to meet urgent needs to acquisition programs
of record. In the memorandum, “Updated Rapid Deployment Capability Execution
Guidance for Subnet Relay and High Frequency Internet Protocol (SNR-HFIP),
Automatic Identification System, Commercial Broadband Satellite Program, and
Expanded Maritime Interceptions Operation,” April 24, 2008 (the Updated Capability
Execution Guidance Memorandum), the Acting ASN (RD&A) acknowledged that Navy
policy (then SECNAV Instruction 5000.2C) did not provide tailored procedures for
making the transition from acquisition efforts to acquisition programs of record, but
stated that he had directed the development of a process for this transition. When asked
about this process development, ASN (RD&A) staff stated that SECNAV Notice 5000
documented the transition process. As of the date of this report, however,
SECNAV Notice 5000 still did not contain tailored procedures for converting acquisition
efforts to acquisition programs of record.

Tailored procedures for converting to programs of record are essential because significant
time is required to develop and obtain approval of documents. Documents needed before
a low- or full-rate production decisions can be made include:

      system threat assessment;
      capability production document;
      acquisition strategy;
      test and evaluation master plan;
      systems engineering plan;
      programmatic environment, safety, and occupational health evaluation;
      affordability assessment;
      information support plan; and
      independent logistics assessments and logistics certification.



                                           17

In this regard, the Acting ASN (RD&A) granted extensions ranging from 6 to 10 months
on making the transition to programs of record for three of the four acquisition efforts the
PEO for C4I was managing. All three extensions included the need for acquisition
managers to complete and gain approval of documents. Additionally, the lessons learned,
provided by the PEO’s staff and included in Appendix G, emphasized the need for early
transition planning because of the time needed for preparing and reviewing the
documents that statute and regulations require for programs of record.

Management Actions
Although ASN (RD&A) approved the acquisition of the CVN PDR on November 17,
2006, during the audit the PEO had not yet approved the RDC strategy for the CVN PDR.
On August 4, 2009, after the discussion draft was issued, the PEO for Integrated Warfare
Systems 2.0 took corrective action by approving the RDC strategy for the CVN PDR.

Conclusion
Without complete guidance and procedures for streamlining and implementing
acquisition strategies to meet urgent needs requests, PEOs and acquisition managers
experienced unnecessary confusion and delays in approving RDC acquisition strategies
and readying acquisition efforts for the transition to programs of record. Specifically, the
PEOs were unnecessarily “reinventing the wheel” in determining how they should plan
and execute these acquisitions. The confusion and delay in the planning process
contributed to unplanned delays in the transition of acquisition efforts to programs of
record.

The Navy plans to cancel SECNAV Notice 5000 in March 2010 and to subsequently
issue a SECNAV Instruction addressing the urgent needs process. We believe that, as
part of the new SECNAV Instruction, the Navy should provide the guidance and
procedures that acquisition managers need for streamlining and implementing acquisition
strategies to manage the development and acquisition of capabilities for rapid
deployment.

Recommendations, Management Comments, and Our Response
B. We recommend that the Assistant Secretary of the Navy (Research, Development,
and Acquisition):

       1.	 Include in the planned Secretary of the Navy Instruction on the urgent
           needs process:

           a.	 Guidance and procedures for:

                     (1) Streamlining and implementing acquisition strategy planning
                         elements required in the Secretary of the Navy Instruction
                         5000.2D, “Implementation and Operation of the Defense
                         Acquisition System and the Joint Capabilities Integration
                         and Development System,” October 16, 2008, to fully meet


                                            18

                        the intent of Public Law 107-314, “The Bob Stump National
                        Defense Authorization Act for Fiscal Year 2003,” which
                        requires DOD to develop procedures for rapidly acquiring,
                        demonstrating, and deploying items to meet urgent needs.

Management Comments
The Executive Director for Acquisition and Logistics Management, responding for the
Assistant Secretary of the Navy (Research, Development, and Acquisition), partially
agreed, stating that the Navy is considering including definitions of the urgent needs
process and procedures in of a revision to SECNAV Instruction 5000.2D.

Our Response
The Executive Director’s comments were partially responsive. Specifically, the
comments indicate only that the Navy is “considering” including definitions of the urgent
needs process and procedures in a revision to the Secretary of the Navy Instruc-
tion 5000.2D.” In response to the final report, we request that the Navy commit to
specific actions and planned completion dates for defining the urgent needs process and
procedures in the revised SECNAV Instruction 5000.2D.


                    (2) Making the transition from acquisition efforts to meet urgent
                        needs to acquisition programs of record, as the Acting
                        Assistant Secretary of the Navy (Research, Development, and
                        Acquisition) discussed in the memorandum, “Updated Rapid
                        Deployment Capability Execution Guidance for Subnet
                        Relay and High Frequency Internet Protocol, Automatic
                        Identification System, Commercial Broadband Satellite
                        Program, and Expanded Maritime Interceptions Operation,”
                        April 24, 2008.

Management Comments
The Executive Director agreed, stating that appropriate language supporting this
recommendation has been submitted and is being considered in the rewrite of the next
iteration of the stated instruction.

Our Response
The Executive Director’s comments were responsive to the recommendation.

           b.	 A requirement that Program Executive Officers approve or
               disapprove acquisition strategies submitted by acquisition managers
               within 90 days of receiving a rapid development capability initiation
               memorandum.




                                           19

Management Comments
The Executive Director agreed, stating that he appreciates the necessity for coordination
and awareness of planned rapid acquisitions among PMs, PEOs, and acquisition and
requirements managers.

Our Response
The Executive Director’s comments were responsive to the recommendation.

       2.	 Establish and maintain a lessons learned database for acquisition
           managers to enhance their planning and execution of acquisition
           strategies to meet urgent needs requests.

Management Comments
The Executive Director partially agreed, stating that the Navy is assessing the need for
this information and the resources to support this recommendation. The Navy is
developing an online tracking system that will provide access to previous urgent needs
response information and documents.

Our Response
The Executive Director’s comments were partially responsive. Specifically, instead of
committing to a specific corrective action, the comments indicate only that the Navy is
“assessing” the need for a lessons learned database. The comments do not commit to a
specific course of action. In response to the final report, we request that the Navy
commit to specific actions and completion dates regarding establishing and maintaining a
lessons learned database, or other resources, to help acquisition managers plan and
execute acquisition strategies to meet urgent needs requests.




                                            20

C. Obtaining Quick Reaction Assessments to
Support Rapid Development and Deployment
Acquisitions
For the four RDD acquisitions reviewed, program sponsors did not request that
COMOPTEVFOR perform QRAs of the materiel solutions before the acquisition
decision authorities made or planned to make production and deployment decisions.
Requests were not made because Navy acquisition policy did not require program
sponsors to request COMOPTEVFOR to perform QRAs for equipment acquired through
the RDD acquisition process. As a result, the ASN (RD&A) allowed the Naval
Innovation Laboratory to deploy materiel solutions for two RDD acquisitions and plan
deployment for the other two RDD acquisitions without first having information from a
COMOPTEVFOR independent operational assessment. Consequently, the materiel
solutions deployed may be subject to unexpected capability limitations and not fully
responsive to urgent needs requests submitted by warfighters.

Public Law and Policy
DOD and the Navy, following congressional direction, issued policy and guidance to
define the role of the COMOPTEVFOR, as the commander of the Navy’s independent
operational test agency, in planning and performing operational tests and assessments of
systems before milestone decision authorities make decisions to produce and deploy the
systems.

Public Law
Section 806 of Public Law 107-314 requires that rapid acquisition procedures
implemented by the Military Departments include a process for demonstrating and
evaluating the performance of items for operational purposes before acquisition milestone
decision authorities make procurement decisions.

Policy
DOD Instruction 5000.02 requires that an independent organization, separate from the
development activity and from user commands, be responsible for all operational test and
evaluations. Within the Navy, COMOPTEVFOR is the independent organization
responsible for operational test and evaluations.

SECNAV Instruction 5000.2D, October 16, 2008, and its predecessor policy SECNAV
Instruction 5000.2C, November 19, 2004, state that it may be necessary to modify the
established operational testing process to rapidly deliver a system to the Fleet to meet an
urgent operational need.

COMOPTEVFOR Instruction 3980.1, “Operational Test Director’s Manual,” April 23,
2008, establishes Navy policy and guidance for planning and executing QRAs. The




                                             21

Instruction states that a QRA is a quick assessment that examines specific operational
considerations and capabilities of a system and that the Navy uses QRAs when
operational necessity dictates deploying a rapid capability in the Fleet.

Quick Reaction Assessments of RDD Acquisitions
At the time of our audit, ASN (RD&A) had authorized the Naval Innovation Laboratory
to oversee the development, integration, testing, and deployment of the following four
RDD acquisition efforts:

      the Tactical Biometric Collection and Matching System;
      the Portable (Chemical, Biological, Radiological, Nuclear, Explosive; and
       Weapons of Mass Destruction) Detection Capability;
      the Acoustic Loud Hailer; and
      the Small Unmanned Aerial Vehicle Radio Frequency Reconnaissance.

The Naval Innovation Laboratory had delivered materiel solutions for the first and second
programs and was still developing the other two.

Although COMOPTEVFOR Instruction 3980.1 states that that Navy program sponsors
can request QRAs when operational necessity dictates rapid deployment,
COMOPTEVFOR staff stated that program sponsors had not requested that
COMOPTEVFOR perform QRAs for the RDD acquisitions. Requests were not made
because SECNAV Instructions 5000.2 C and D required program sponsors to obtain a
QRA from COMOPTEVFOR only for RDC acquisition efforts. Section 806 of Public
Law 107-314 mandates operational assessments for developmental items, which the
Navy designated as RDD items, under its rapid acquisition and deployment procedures.
Accordingly, SECNAV Instruction 5000.2D needs to specifically require that program
sponsors request COMOPTEVFOR to perform QRAs for RDD acquisitions.

During the audit, ASN (RD&A) and COMOPTEVFOR staff both agreed that program
sponsors and acquisition managers needed to involve COMOPTEVFOR in assessing the
readiness of RDD items to be deployed to satisfy urgent needs requests of the warfighter.

Conclusion
Navy policies and procedures for operational testing and assessments of RDD items need
to be improved to fully comply with section 806 of Public Law 107-314. Specifically,
program sponsors and acquisition managers should be required to have
COMOPTEVFOR perform QRAs of RDD items that will be deployed to satisfy urgent
needs requests before making decisions to deploy the systems. The performance of
QRAs will ensure that acquisition decision authorities have information from an
independent evaluation on the capabilities and limitations of items before they make
deployment decisions.




                                           22

Recommendation, Management Comments, and Our Response
C. We recommend that the Assistant Secretary of the Navy (Research,
Development, and Acquisition) revise the Secretary of the Navy
Instruction 5000.2D, “Implementation and Operation of the Defense Acquisition
System and the Joint Capabilities Integration and Development System,” October
16, 2008, to require program sponsors and acquisition managers to request the
Commander, Operational Test and Evaluation Force, to perform quick reaction
assessments of equipment that the Navy is acquiring through the rapid development
and deployment process.

Management Comments
The Executive Director for Acquisition and Logistics Management, responding for the
Assistant Secretary of the Navy (Research, Development, and Acquisition), agreed in
part, stating that for those time-sensitive operational needs that can be effectively
addressed through the RDD process, acquisition managers should consider performance
of a QRA by the operational test agency (COMOPTEVFOR) in the RDD timeline and
goals for rapid response. He further stated that representation from the test and
evaluation community is now part of the vetting process for urgent needs.

Our Response
The Executive Director’s comments were not responsive. Specifically, while the
Executive Director stated that performance of a QRA should be “considered” when
planning to use RDDs to meet operational needs, section 806 of Public Law 107-314
requires that the rapid acquisition procedures of Military Departments include a process
for demonstrating and evaluating the performance of items for operational purposes
before acquisition milestone decision authorities make deployment decisions. The QRA
is the Navy’s method for evaluating rapid acquisition efforts for operational purposes.
Additionally, the Director’s comments do not address updating SECNAV
Instruction 5000.2D, as discussed in the recommendation. Further, the Director’s
comments are unclear regarding the role of COMOPTEVFOR in the urgent needs
process. Although the comments state that “representation from the test and evaluation
community is now part of the vetting process for urgent needs,” it is unclear whether this
representation includes COMOPTEVFOR. Accordingly, we request that the Navy
reconsider its position on the recommendation and provide additional comments in
response to the final report.




                                            23

Appendix A. Scope and Methodology
We conducted this performance audit from July 2008 through September 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

During the audit, we evaluated the Navy’s procedures for identifying and validating
urgent capability needs, contracting for and acquiring materiel solutions to meet those
needs, and complying with DOD requirements and acquisition policies once materiel
solutions are fielded. We reviewed Navy policies and program documentation, as well as
requirements and capabilities, testing, contracting, acquisition strategy, and funding
documents for rapid deployment capability (RDC) and rapid development and
deployment (RDD) acquisitions dated from December 1996 through March 2009. We
also interviewed staff from the offices of the Director, Operational Test and Evaluation;
the Chief of Naval Operations (CNO); the Assistant Secretary of the Navy (Research,
Development, and Acquisition) (ASN [RD&A]); the Fleet Forces Command; the
Commander, Operational Test and Evaluation Force; the Naval Air Systems Command;
the Naval Sea Systems Command; the Space and Naval Warfare Systems Command; the
Naval Innovation Laboratory; and the Defense Contract Management Agency.
Additionally, to assess their experiences with the Navy’s urgent needs process, we
surveyed personnel from the following commands: Pacific Fleet; U.S. Naval Forces
Europe; U.S. Naval Forces Central Command; U.S. Naval Forces Southern Command;
and U.S. Naval Special Warfare Command.

During the initial phase of the audit, we determined that the Navy’s procedures for
identifying and validating urgent capability needs were adequate and that the Navy staff
from the offices of the CNO, the ASN (RD&A), and the Fleet Forces Command were
following those procedures. However, we also noted the potential for improving the
Navy’s management of contracting for and acquiring materiel solutions to meet urgent
needs and its compliance with DOD requirements and acquisition policies once materiel
solutions are fielded. The Navy initiated 13 acquisition efforts to meet urgent needs
between 2004 and the start of our audit in August 2008. Of these, the Navy classified
nine as RDC acquisition efforts, with funding of $86.1 million for research, development,
test, and evaluation and $172.4 million for procurement. The Navy classified the other
four as RDD acquisition efforts, with funding of $18.7 million for research, development,
test, and evaluation. Appendix C provides information on the definitions and uses of
RDC and RDD acquisition efforts.

We judgmentally selected eight RDC acquisition programs for detailed review to
evaluate the efforts of the different management chains within Navy acquisition,
emphasizing acquisitions with significant funding. The eight RDC acquisitions were
managed by five different Program Executive Officers and involved 75.1 percent of the
research, development, test, and evaluation funding and 99.4 percent of procurement


                                           24

funding for the 13 rapid acquisition efforts the Navy had initiated since 2004. For the
eight RDC acquisitions, we performed detailed reviews of their planning and execution,
including evaluating the acquisition strategies and test and evaluation, and planning for
their transition from rapid acquisition solutions to acquisition programs of record, as
defined in the DOD 5000 series of acquisition guidance. Additionally, for four of the
eight selected RDC acquisitions, we also reviewed contracting and planned logistical
support. In addition to the RDC acquisitions, we reviewed whether quick reaction
assessments were performed for all four of the RDD acquisition programs that the ASN
(RD&A) had authorized.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Use of Technical Assistance
An electronics engineer and a computer engineer from the Technical Assessment 

Directorate, Department of Defense Office of Inspector General assisted in the audit. 

The engineers supported the audit team on audit planning, objectives, and methodologies, 

and reviewed test programs and acquisition strategies for acquisition solutions selected 

for review. 


Prior Coverage
No audits have been conducted on the rapid acquisition and fielding of materiel solutions
by the Navy during the last 5 years.




                                            25

Appendix B. Public Law on Rapid Acquisition
The paragraphs below provide the language of Section 806 of Public Law 107-314 and
section 811 of Public Law 108-375. Both address DOD’s rapid acquisition of items that
warfighters urgently need to react to enemy threats or to respond to significant and urgent
safety risks. Public Law 108-375 amends Public Law 107-314 to allow for waivers of
certain acquisition-related statutes and regulations in response to combat emergencies.

SEC. 806. RAPID ACQUISITION AND DEPLOYMENT
PROCEDURES
       (a) REQUIREMENT TO ESTABLISH PROCEDURES.—Not later than 180
       days after the date of the enactment of this Act, the Secretary of Defense shall
       prescribe procedures for the rapid acquisition and deployment of items that are—
               (1) currently under development by the Department of Defense or
               available from the commercial sector; and
               (2) urgently needed to react to an enemy threat or to respond to significant
               and urgent safety situations.
       (b) ISSUES TO BE ADDRESSED.—The procedures prescribed under subsection
       (a) shall include the following:
               (1) A process for streamlined communications between the Chairman of
               the Joint Chiefs of Staff, the acquisition community, and the research and
               development community, including—
                       (A) a process for the commanders of the combatant commands and
                       the Joint Chiefs of Staff to communicate their needs to the
                       acquisition community and the research and development
                       community; and
                       (B) a process for the acquisition community and the research and
                       development community to propose items that meet the needs
                       communicated by the combatant commands and the Joint Chiefs of
                       Staff.
               (2) Procedures for demonstrating, rapidly acquiring, and deploying items
               proposed pursuant to paragraph (1)(B), including—
                       (A) a process for demonstrating performance and evaluating for
                       current operational purposes the existing capability of an item;
                       (B) a process for developing an acquisition and funding strategy
                       for the deployment of an item; and
                       (C) a process for making deployment determinations based on
                       information obtained pursuant to subparagraphs (A) and (B).
       (c) TESTING REQUIREMENT.—
               (1) The process for demonstrating performance and evaluating for current
               operational purposes the existing capability of an item prescribed under
               subsection (b)(2)(A) shall include—
                       (A) an operational assessment in accordance with procedures
                       prescribed by the Director of Operational Test and Evaluation; and



                                            26

                       (B) a requirement to provide information about any deficiency of
                       the item in meeting the original requirements for the item (as stated
                       in an operational requirements document or similar document) to
                       the deployment decisionmaking authority.
               (2) The process may not include a requirement for any deficiency of an
               item to be the determining factor in deciding whether to deploy the item.
       (d) LIMITATION.—The quantity of items of a system procured using the
       procedures prescribed pursuant to this section may not exceed the number
       established for low-rate initial production for the system. Any such items shall be
       counted for purposes of the number of items of the system that may be procured
       through low-rate initial production.

SEC. 811. RAPID ACQUISITION AUTHORITY TO
RESPOND TO COMBAT EMERGENCIES
Section 806 of the Bob Stump National Defense Authorization Act for Fiscal Year 2003
(10 U.S.C. 2302 note) is amended—
               (1) by redesignating subsections (c) and (d) as subsections (e) and (f),
               respectively; and
               (2) by inserting after subsection (b) the following new subsections (c) and
               (d):
       ‘‘(c) RESPONSE TO COMBAT EMERGENCIES.—(1) In the case of any
       equipment that, as determined in writing by the Secretary of Defense without
       delegation, is urgently needed to eliminate a combat capability deficiency that has
       resulted in combat fatalities, the Secretary shall use the procedures developed
       under this section in order to accomplish the rapid acquisition and deployment of
       the needed equipment.
           “(2)(A) Whenever the Secretary makes a determination under paragraph (1)
       that certain equipment is urgently needed to eliminate a combat capability
       deficiency that has resulted in combat fatalities, the Secretary shall designate a
       senior official of the Department of Defense to ensure that the needed equipment
       is acquired and deployed as quickly as possible, with a goal of awarding a
       contract for the acquisition of the equipment within 15 days.
           ‘‘(B) Upon designation of a senior official under subparagraph (A), the
       Secretary shall authorize that official to waive any provision of law, policy,
       directive, or regulation described in subsection (d) that such official determines in
       writing would unnecessarily impede the rapid acquisition and deployment of the
       needed equipment. In a case in which the needed equipment cannot be acquired
       without an extensive delay, the senior official shall require that an interim
       solution be implemented and deployed using the procedures developed under this
       section to minimize the combat capability deficiency and combat fatalities.
           “(3) The authority of this section may not be used to acquire equipment in an
       amount aggregating more than $100,000,000 during any fiscal year. For
       acquisitions of equipment under this section during the fiscal year in which the
       Secretary makes the determination described in paragraph (1) with respect to such
       equipment, the Secretary may use any funds available to the Department of
       Defense for that fiscal year.


                                            27

    “(4) The Secretary of Defense shall notify the congressional defense
committees within 15 days after each determination made under paragraph (1).
Each such notice shall identify—
        “(A) the equipment to be acquired; 

        “(B) the amount anticipated to be expended for the acquisition; and 

        “(C) the source of funds for the acquisition. 

    “(5) Any acquisition initiated under this subsection shall transition to the
normal acquisition system not later than two years after the date on which the
Secretary makes the determination described in paragraph (1) with respect to that
equipment.
‘‘(d) WAIVER OF CERTAIN STATUTES AND REGULATIONS.—
        (1) Upon a determination described in subsection (c)(1), the senior official
        designated in accordance with subsection (c)(2) with respect to that
        designation is authorized to waive any provision of law, policy, directive
        or regulation addressing—
                ‘‘(A) the establishment of the requirement for the equipment;
                ‘‘(B) the research, development, test, and evaluation of the
                equipment; or
                ‘‘(C) the solicitation and selection of sources, and the award of the
                contract, for procurement of the equipment.
        ‘‘(2) Nothing in this subsection authorizes the waiver of—
                ‘‘(A) the requirements of this section or the regulations
                implementing this section; or
                ‘‘(B) any provision of law imposing civil or criminal penalties.’’




                                     28

Appendix C. The Navy’s Urgent Needs
Process
The flowchart below is included as Enclosure 1 to SECNAV Notice 5000, and provides a
graphic representation of the Navy’s urgent needs process. As depicted, the process
begins with a warfighter request and concludes with the warfighter receiving a capability
to meet the request. The flowchart shows the customers, activities, and outputs involved
in the three phases of the Navy’s urgent needs process, which include needs identification
and certification, solution strategy development and resourcing, and solution execution.
A discussion of the activities occurring in each of the three phases follows the flowchart.
Because the SECNAV Notice establishes the urgent needs process at the Department of
the Navy level, the Navy and Marine Corps use the same process for meeting urgent
warfighter needs.




 Needs Identification             Solution Strategy Development &                                        Solution Execution
   & Certification                           Resourcing

                                                        Visibility Throughout the Process



                 USMC             Cross-     Cross-Functional                                Execution
               Component        Functional                            Flag/GO                               Execution of
 Warfighter                                       Team                                        Agent         Solution Plan
               Commander         Solution                             Approval
 Request                                      Recommends                                    Assignment
              “Certify Need”   Development   Solution Strategy                                               COTS/GOTS
                     or         Team Lead       Interim &                                                      RDC
                  USN          Assignment     Longer-Term
               Component
               Commander                        COTS/GOTS                                                       RDD
              “Certify Need”                        RDC
                   via                                                                                                        Warfighter
                                                    RDD
                U.S. Fleet                    Other Request
                                                                                                            Other Request     Receives
                 Forces                                                                                                       Capability
                                               Non-Materiel
                Command                           Solution                                                   Non-Materiel
                                                                                                               Solution
                                             Deliberate Process
                                                                                                             Deliberate
                                                                                                              Process
        Reject and                                                     Rework
       Return Request                                                 Proposed
                                                                       Solution

                                                                                                              Purchase




                                                                                                                                     2f


Source: SECNAV Notice 5000

COTS                                            Commercial Off-the-Shelf
GO                                              General Officer
GOTS                                            Government Off-the-Shelf
USMC                                            U.S. Marine Corps
USN                                             U.S. Navy



                                                                          29

Needs Identification and Certification Phase
In the identification and certification phase, Navy activities that recognize gaps in
warfighting capabilities then identify urgent needs through their chain of command to the
applicable Component commander. Navy Component commanders include the U.S Fleet
Forces Command; Commander, Pacific Fleet; Commander, U.S. Naval Forces Europe;
Commander, U.S. Naval Forces Central Command; Commander, U.S. Naval Forces
Southern Command; and Commander, U.S. Naval Special Warfare Command. The
Component commanders are responsible for certifying that each urgent need received
from Navy activities meets the definition of urgency and cannot be solved internally or
with existing resources. Component commanders, when certifying the urgent needs
Navy activities have identified, use the following definition of urgent need:

               An urgent need is an exceptional request from a Navy or Marine Corps
               component commander for an additional warfighting capability
               critically needed by operating forces conducting combat or contingency
               operations. Failure to deliver the capability requested is likely to result
               in the inability of units to accomplish their missions or increases the
               probability of casualties and loss of life.

Solution Strategy Development and Resourcing Phase
The solution strategy development and resourcing phase involves using a cross-functional
team to develop the solution strategy. The staff of the CNO forms the cross-functional
team (which is made up of members from the operating forces; acquisition, financial
management, technology, and legal communities; and the resource sponsor) to provide
the best available solution. The cross-functional team is responsible for refining the
details of the capability gap and providing a recommendation for solution development to
fill the gap. Within the development of the solution strategy, the team will make a
recommendation to consider a combination of any or all of the following options:

      Commercial Off-The-Shelf / Government Off-The-Shelf,
      Rapid Deployment Capability (RDC),
      Rapid Development and Deployment (RDD),
      Other (Research and Development), and
      Deliberate Process (the traditional process under Chairman of the Joint Chiefs of
       Staff Instruction 3170.01G and the DOD 5000 series of directives)

Because the acquisition solution efforts ongoing or recently completed at the time of our
audit were using the RDC and RDD options, we provide further description of those
options below.

RDC Option
SECNAV Notice 5000 states that acquisition managers may use the RDC option to
facilitate rapid acquisitions of slightly modified COTS or other nondevelopmental items
as materiel solutions. Candidate materiel solutions for the RDC option typically involve
technology that is at least at Technology Readiness Level 8. Technology Readiness
Level 8 indicates that the technology has been proven to work in its final form and under


                                                  30

expected conditions. As of April 2009, the Navy was tracking nine acquisition solutions
designated as using the RDC option. Together, these solutions had received
$86.1 million in research, development, test, and evaluation funding and $172.4 million
in procurement funding.

RDD Option
SECNAV Notice 5000 states that acquisition managers may use the RDD option to
rapidly develop, integrate, and test prototype solutions when commercial solutions are
not immediately available. Candidate solutions for the RDD option typically involve
technology that is at least at Technology Readiness Level 6, meaning that a representative
model or prototype system has been demonstrated in a relevant environment. As of April
2009, the Navy was tracking four acquisition solutions using the RDD option. Together,
these four solutions had received $18.7 million in research, development, test, and
evaluation funding. Because of the developmental nature of RDD solutions, no
procurement funding was included in the funding estimates. The Navy started funding
RDD solutions in 2007.

Solution Execution Phase
The solution execution phase begins when the ASN (RD&A) assigns the authority to
execute an acquisition solution to the appropriate PEO. The PEO staff then formulate an
acquisition strategy, which the PEO approves and his staff execute, resulting in delivery
of a sustainable solution to the warfighter. The solution execution phase also includes
considering the need to move the acquisition solution into the deliberate process as an
acquisition program of record. The deliberate process is defined in Chairman of the Joint
Chiefs of Staff Instruction 3170.01G and the DOD 5000 series of acquisition guidance.




                                           31

Appendix D. Improvements to the Navy’s
Urgent Needs Process Since 1996
Since issuing SECNAV Instruction 5000.2B in 1996, the Navy has continued to improve
and refine the process for meeting urgent needs requests from warfighters. These
improvements have included updating the SECNAV Instruction, issuing memoranda on
urgent needs processing, and issuing SECNAV Notice 5000. The Navy’s issuance of
additional policy memoranda has done much to assist Navy activities in submitting
urgent needs requests and acquisition managers in meeting urgent needs requests. The
memoranda more clearly defined the roles of the CNO and the ASN (RD&A) in the
Navy’s urgent needs process. The sections below provide further details on the
SECNAV Instruction and the processing memoranda. The Background section and
Appendix C of this report discuss the SECNAV Notice.

SECNAV Instruction
SECNAV Instruction 5000.2C, November 19, 2004, updated SECNAV Instruction
5000.2B and was the policy in effect when the Navy initiated the urgent needs solutions
efforts reviewed in our audit. The updated Instruction expanded the policy for planning
and executing the Navy’s urgent needs process to include:

      testing interoperability between rapidly acquired systems and other operational
       systems,
      planning the transition of RDC programs to acquisition programs of record, and
      planning for eventual demilitarization and disposal of the materiel solutions.

Additionally, the updated Instruction required the COMOPTEVFOR to provide QRAs of
the operational effectiveness and suitability of equipment to meet urgent needs before
delivery to the Fleet.

SECNAV Instruction 5000.2D, October 16, 2008, updated SECNAV Instruction 5000.2C
to provide the current policy for planning and executing the Navy’s urgent needs process.
The updated SECNAV Instruction added the requirement to execute a plan to determine
net-centric (information exchange) performance requirements for acquisition solutions to
meet urgent needs.

Urgent Needs Processing Memoranda
The CNO and the ASN (RD&A) issued a joint memorandum on urgent needs processing
that defined responsibilities for responding to urgent needs requests. Additionally, the
ASN (RD&A) issued a memorandum providing guidance for expediting the processing
of urgent needs requests.

Joint Memorandum
The joint memorandum between the CNO and the ASN (RD&A), “Navy Urgent Needs
Process Implementation,” July 26, 2007, defined cooperative roles for the CNO and the


                                           32

ASN (RD&A) in responding to urgent needs requests from Navy activities. Specifically,
the joint memorandum provided guidance for the administrative procedures and timelines
regarding processing urgent needs requests. The joint memorandum also outlined the
procedures for the following three ways urgent needs requests are generated through the
Navy:

     Navy activities submitting urgent needs requests through their Component
      Commanders;
    CNO staff submitting requests, based on information from Navy operational
      units; and
   	 joint urgent operational needs of the combatant commanders being assigned to the
      Navy through the joint urgent operational needs process established in Chairman
      of the Joint Chiefs of Staff Instruction 3470.01, “Rapid Validation and
      Resourcing of Joint Urgent Operational Needs in the Year of Execution,” July 15
      2005.

The joint memorandum also assigned the Associate Director of the Assessments Division
within the office of the CNO as the Navy urgent needs gatekeeper. The gatekeeper’s
responsibilities include:

      serving as the CNO’s single point of receipt for urgent needs requests;
      screening urgent needs requests to ensure compliance with applicable instructions
       and policy; and
      tracking rapid acquisition documents within the CNO staff to ensure they are
       processed in a timely manner.

Additionally, the joint memorandum stated that, for each urgent need request, the
gatekeeper assigns a rapid action team lead, who will coordinate with ASN (RD&A) staff
to form a rapid acquisition team. The rapid acquisition team then further defines the
urgent need, identifies potential materiel solutions, develops a cost estimate, and
recommends a rapid acquisition path. (SECNAV Notice 5000, March 12, 2009,
subsequently designated the rapid acquisition team as the cross-functional solution
development team.)

ASN (RD&A) Memorandum
The ASN (RD&A) memorandum, “Rapid Acquisition Processing Update,” August 1,
2007, provided Navy activities with a list of 12 global RDC rules for use in preparing
urgent needs requests. The memorandum also provided detailed guidance regarding the
informational content of urgent needs requests, including the suggested documentation to
explain each of the following request elements:

      description of the threat or urgency; 

      description of the requirement and whether it is a Service or joint requirement; 

      description of known products, domestic and foreign, that can provide the 

       capability; 

      item quantities required; 



                                            33

      identification of funding (amount and source); 

      required deployment date; 

      description of all testing;

      description or concept of logistics support required; 

      description or concept of support required for long-term maintenance; 

      a statement that a plan will be developed for conducting a quick reaction 

       assessment to verify that deployment of the items will not adversely affect
       interoperability and integration, compatibility, or safety; and
      consideration of manpower, personnel, and training requirements for fielding the
       item.

Together, the checklist and global RDC rules create a more formalized process for Navy
activities to follow in preparing urgent needs requests to fill mission-critical capability
gaps.




                                             34

Appendix E. Acquisition Efforts Using the
Urgent Needs Process
The following table lists the RDC and RDD acquisitions that the Navy initiated between
FY 2004 and the start of our audit in July 2008.

 Program Name          PEO                    Description                     RDT&E         Procurement
                                                                              Funding         Funding
                                                                             (millions)      (millions)
                                       RDC Acquisition Efforts
Automatic               C4I      Transceiver that transmits and receives       $14.1               $33.9
Identification                   vessel navigational information over
System                           maritime frequencies.
Commercial              C4I      New commercial satellite                        6.5               49.6
Broadband                        communication capability that
Satellite                        replaces aging terminals.
Program
Carrier Vessel         IWS       High scan rate antenna, and a high             52.0               47.7
Nuclear                 2.0      performance processor to alert ships of
Periscope                        targets of importance.
Detection Radar
Direct Attack         U&W        Weapon that provides targeting                                    16.9
Moving Target                    flexibility to engage fixed, mobile, and
Capability                       moving targets.

Expanded              LMW        Provides naval forces a biometric-                                 5.6
Maritime                         based capability to positively identify
Intercept                        unknown individuals encountered in
Operations                       naval operations.
Toolset
Expanded                C4I      Provides a secure, wireless                     4.6                3.9
Maritime                         transmission system capable of
Intercept                        transmitting biometric data from
Operations                       boarding teams on target vessels.
Wireless
Reachback
System

Intrepid Tiger         PEO       Provides aircraft with multiplatform            7.4                1.0
Pods12                  (T)      offensive and defensive airborne
                                 electronic combat mission support.

Sub-net Relay           C4I      Provides tactical ship-to-ship                  1.5                6.3
High Frequency                   networking capability using several
Internet Protocol                frequencies to increase information
                                 sharing.




Note: See the list of acronyms at the end of the appendix. 

12
   We did not review the Intrepid Tiger Pods acquisition effort because the majority of program

documentation was lost in a crash of the Secret Internet Protocol Router Network. 



                                                    35
Small Ship           IWS       Identifies radar signals and creates a                       7.5
Electronic                     hardware-specific “fingerprint” for
Support                        that unit’s signal.
Measure /
Specific Emitter
Identification
                               Total RDCs                                 $86.1           $172.4


                                       RDD Acquisition Efforts23

Acoustic Loud        NaIL      Helicopter-mounted acoustic hailing         $3.5
Hailer                         device.

Portable             NaIL      Full spectrum chemical, biological,          5.4
CBRNE                          radiological, nuclear, and explosive
Detection                      detection capability; with detail
Capability                     specific sensor communication
                               network.
Small                NaIL      Reconnaissance package mounted on            3.8
Unmanned                       UAV to transmit radio signals.
Aerial Vehicle
(UAV) Radio
Frequency
Reconnaissance
Tactical             NaIL      Portable biometric verification device       6.0
Biometric                      that will facilitate mobile verification
Collection and                 of individuals.
Matching
System
                               Total RDD efforts                           $18.7            $0

                               Total                                      $104.8         $172.4


C4I – Command, Control, Communications, Computers, and Intelligence
CBRNE – Chemical, Biological, Radiological, Nuclear, and Explosive
IWS – Integrated Warfare Systems
LMW – Littoral Mine Warfare
PEO(T) – Advanced Tactical Aircraft Protection Systems
NaIL – Naval Innovation Laboratory
U&W – Strike Weapons and Unmanned Aviation




23
  Because of the developmental nature of RDD solutions, the Navy was required to use RDT&E funding.


                                                   36

Appendix F. Technology Readiness Levels
Technology readiness levels (TRLs) are a measure of technical maturity. Technology
maturity is a measure of the degree to which proposed critical technologies meet program
objectives. Technology maturity is also a principal element of program risk. A
technology readiness assessment examines program concepts, technology requirements,
and demonstrated technology capabilities to determine technological maturity. TRLs are
reported in technology readiness assessments as part of the program’s technical risk
assessment. The use of TRLs enables consistent, uniform discussions of technical
maturity across types of technologies. There are three sets of TRL definitions, one each
for hardware, software, and manufacturing technology. The table below describes the
TRLs for hardware. TRLs range from 1 to 9 in increasing order of technical maturity.

Technology           Definition                                    Description
Readiness
  Level
                                              Hardware
     1          Basic principles         Lowest level of technology readiness. Scientific research
                observed and             begins to be translated into applied research and development
                reported.                (R&D). Examples might include paper studies of a
                                         technology’s basic properties.

     2          Technology concept       Invention begins. Once basic principles are observed, practical
                and/or application       applications can be invented. Applications are speculative,
                formulated.              and there may be no proof or detailed analysis to support the
                                         assumptions. Examples are limited to analytic studies.

     3          Analytical and           Active research and development is initiated. This includes
                experimental critical    analytical studies and laboratory studies to physically validate
                function and/or          the analytical predictions of separate elements of the
                characteristic proof     technology. Examples include components that are not yet
                of concept.              integrated or representative.
     4          Component and/or         Basic technological components are integrated to establish that
                breadboard*4             they will work together. This is relatively low fidelity
                validation in a          compared with the eventual system. Examples include
                laboratory               integration of ad hoc hardware in the laboratory.
                environment.
     5          Component and/or         Fidelity of breadboard technology increases significantly. The
                breadboard               basic technological components are integrated with reasonably
                validation in a          realistic supporting elements so they can be tested in a
                relevant                 simulated environment. Examples include high-fidelity
                environment.             laboratory integration of components.




*4A breadboard is defined as the integrated components that provide a representation of a
system/subsystem and that can be used to determine concept feasibility and to develop technical data. A
breadboard is typically configured for laboratory use to demonstrate the technical principles of immediate
interest. A breadboard may resemble final system/subsystem in function only.


                                                    37
6   System/subsystem      Representative model or prototype system, which is well
    model or prototype    beyond that of TRL 5, is tested in a relevant environment.
    demonstration in a    Represents a major step up in a technology’s demonstrated
    relevant              readiness. Examples include testing a prototype in a high-
    environment.          fidelity laboratory environment or in a simulated operational
                          environment.
7   System prototype      Prototype near or at planned operational system. Represents a
    demonstration in an   major step up from TRL 6 by requiring demonstration of an
    operational           actual system prototype in an operational environment (e.g., in
    environment.          an aircraft, in a vehicle, or in space). Examples include testing
                          the prototype in a test bed aircraft.
8   Actual system         Technology has been proven to work in its final form and
    completed and         under expected conditions. In almost all cases, this TRL
    qualified through     represents the end of true system development. Examples
    test and              include developmental test and evaluation of the system in its
    demonstration.        intended weapon system to determine if it meets design
                          specifications.
9   Actual system         Actual application of the technology in its final form and
    proven through        under mission conditions, such as those encountered in
    successful mission    operational test and evaluation (OT&E). Examples include
    operations.           using the system under operational mission conditions.




                                     38

Appendix G. Lessons Learned From the
Program Executive Officer for Command,
Control, Communications, Computers, and
Intelligence
The staff of the PEO for Command, Control, Communications, Computers, and
Intelligence provided us with general lessons learned in planning and executing the
Automatic Identification System as an RDC effort. The staff also provided lessons
learned specific to planning and executing logistical support for the Automatic
Identification System and a listing of recommended logistics actions that should begin
after key program events. The sections below provide synopses of the general and
logistics lessons learned and recommended logistical actions.

General Lessons Learned
   1.	 Providing acquisition managers with early and specific senior-level guidance is
       important to success. PEO staff believed that explicit CNO guidance in July 2005
       was the key enabler for planning the RDC effort for the Automatic Identification
       System. Further, after the Automatic Identification System became an RDC
       effort, senior leadership within CNO provided critical hands-on support in
       expediting the acquisition of the system.

   2.	 Regular communication between requirements, acquisition, and resource
       communities kept stakeholders current on cost, schedule, and performance status.

   3.	 Maintaining discipline over requests to add additional capabilities was necessary
       to preserve the rapid aspect of the RDC effort. Specifically, it was important to
       involve the combatant commands early in the capabilities development,
       acquisition, and budget cycles; to allow early input from those that will operate
       the system; and to team with the operator, acquisition, and resource communities
       to quickly adjudicate requests to add capabilities.

   4.	 Studying lessons learned of earlier “RDC-like” programs helped optimize the
       capability Automatic Identification System provided to the Fleet.

   5.	 Performing prototyping and proof of concept exercises very early in the RDC
       process proved the military utility of the Automatic Identification System and
       garnered early stakeholder support. Also, after early installation of a preliminary
       version of the system, there were valuable lessons learned for future installations.

   6.	 Fencing funding provided for rapid acquisitions needed budget stability.
       Specifically, for the Automatic Identification System, the difference between
       success and failure was obtaining funding from congressional and Global War on
       Terrorism supplements, research labs, and below-threshold reprogramming.



                                            39

  7.	 Involving the operational test community early in the RDC effort gave the
      COMOPTEVFOR’s staff the product knowledge they needed to better plan the
      QRA to assess system operational effectiveness and suitability. Further, the
      performance of appropriate levels of operational testing before system
      procurement and fielding resulted in better informed system installations, training,
      and logistics planning.

  8.	 Managing as if the RDC effort was a program of record helps the transition
      process. PEO staff recommended staffing the RDC effort with the number and
      quality of senior and experienced military and civilian personnel necessary to
      field the RDC units and prepare for the transition of the RDC effort to program of
      record status. Additionally, they recommended completing a plan of action and
      milestones for the transition to a program of record, as part of the RDC
      acquisition strategy, to jump-start early transition planning. They stated that early
      transition planning is important because of the time needed to prepare and review
      documents that statute and regulation require for programs of record.

  9.	 Planning early for challenges and risks in completing the capability production
      document was key. Early planning was necessary because the lengthy Joint
      Capabilities Integration and Development System process conflicted with the time
      allotted for the RDC effort’s transition to a program of record. For the Automatic
      Identification System, one of the top risks was a poorly written capability
      production document, which could adversely affect testers, cost estimators, and
      program management staff. The team completing the capability production
      document should be the team assisting the procuring contract officer on the
      contract specification. In formulating capability requirements, the team should
      list just those performance thresholds that current mature technology can field
      today. Stretch goals from immature technology should be considered
      performance objectives or placed in a later increment.

  10. Collaborating with other program offices and Systems Commands providing
      similar products and services would have increased product knowledge, provided
      lessons learned, and reduced program risk.

  11. Providing regular cost, schedule, and performance status reports to senior Navy
      leaders and action officers would have better managed stakeholder expectations
      and reduced questions and requests for briefings.

Lessons Learned for Logistics Support
  1.	 Immediately create and document an integrated logistics support strategy.

  2.	 Be involved in developing the RDC strategy. Recommend that the acquisition
      strategy include a plan for logistics and long-term maintenance. The plan should
      cover maintenance concept, integrated logistics support, manpower estimate,
      inventory management, configuration management, data management, operator
      and maintenance training, and demilitarization and disposal.


                                           40

  3.	 Work closely with the requirements team and the systems engineers.

  4.	 Plan how to procure spares to support initial system installations, including
      ensuring availability of funds to buy spares.

  5.	 Develop initial requirements by using projected unit cost and estimated quantities.

  6.	 Ensure there is an assigned Naval Inventory Control Point program manager.

  7.	 Draft the logistics parts of the capability production document.

  8.	 Develop a preliminary parts allowance list to support initial RDC installations,
      and a full allowance parts list once the provisioning technical documentation is
      developed and made available to the Naval Inventory Control Point.

  9.	 Be involved in contract development, and focus on areas such as warranty
      provisions, lead times for required spares, supplemental logistics products and
      services offered, and the quality of technical data provided with the product.

  10. Be sure to utilize commercial warranties. 	In addition to parts support, vendor
      warranties can be written to include technical support and engineering services.

  11. If the system design is heavily commercial off-the-shelf, leverage the use of
      existing vendor documentation and products to support the system during the
      RDC phase and then determine a plan to update and incorporate them to support
      the transition to a program of record.

  12. Cooperate and work closely with COMOPTEVFOR in support of any QRA
      requirements.

  13. Use advanced individual training to achieve initial training requirements.
      Develop plans to shift training requirements to formal training. Since RDCs are
      new requirements, getting early buy-in from affected schoolhouses and
      communities is difficult.

  14. Identify and document manning requirements.

Logistical Actions After Key Program Events
  1.	 ASN (RD&A) RDC Approval
       start drafting integrated logistics support plan;
       determine funding source for buying spares;
       start establishing in-service infrastructure;
       forecast reliability, maintainability, and availability objectives;
       participate in acquisition integrated project teams established for the RDC;



                                           41

   	 request assignment of a program manager for the Naval Inventory Control
      Point; and
   	 assist in drafting integrated logistics support and training portions of the
      contract statement of work.

2.	 Contract Award
    	 serve on the technical evaluation board, with specific emphasis on the
       contractor’s proposal for warranty provisions, lead times, quality of technical
       data, and other technical support;
     participate in any contract meetings; and
     ensure that spares and spares funding are adequately addressed and provided
       on time.

3. Initial Fielding
    work with the Regional Maintenance and Modernization Coordination Office
       to ensure that there are no delays in getting onboard platforms for alteration
       installation teams to perform system installations,
   	 use alteration installation team training to achieve initial training
       requirements, and
    deliver commercial off-the-shelf technical manuals to support initial system
       installation.

4.	 Integrated Logistics Support Certification
     use the RDC approval letter as authorization for timeline waivers for
        integrated logistics support certifications, and
    	 pursue integrated logistics support certifications once support products are
        complete.

5. QRA Requirement
    ensure that all integrated logistics support certifications are available to the
     QRA team,
    ensure that the operators using the system are well trained, and
    brief COMOPTEVFOR on the integrated logistics support strategy and the
     status of all logistics products.

6.	 Milestone Decision (transition to Program of Record)
    	 Ensure that an independent logistics assessment is appropriately scheduled
       3 months before the milestone decision point.




                                         42

Department of the Navy Comments





                                 DEPARTMENT OF THE NAVY
                              OFFICE OF THE ASSISTANT SE CR ETARY
                           (RESEARCH. DEVELOPMENT AND ACQUISITION )
                                      1000 NA VY PENTAGON
                                  WASHINGTON DC 20350· 1000


                                          OCT I 32009
       MEMORANDUM FOR OFF ICE OF THE INSPECTOR GENERAL OF THE
                    DEPARTMENT OF DEFENSE

       Subj: REPORT ON RAPID ACQUISITION AND FIEL DING OF MATERIEL
             SOLUTIONS BY TH E NI\ VY

       Ref': (a) DODIG Dran Report No. D2008-DOOOAE-0247.000 orSep 3, 2009

       End: (1) Summary of Recommendations and Actions for DODIG No.
                 D2008-DOOOAE-0247.000 Draft Report
             (2) Summary of Comments to Various Findings in subject Draft Repon

              In response to reference (a), enclosures ( I) and (2) are forwarded listing the
       comments, recommendations and status of action taken. Questions concerning
       this letter should be directed to




                                           Elliott B. Branch
                                           Executive Director
                                           Acquisition & Logistics Management



       Copy to:
       NAVIG
       DAS (EXW)
       PEO(C41 and Space)
       PEO( IWS)
       PEO(LMW)
       I'EO(T)
       PEO(U&W)
       AIROOG4
       SEA OON3C




                                                             43
  DEPARTMENT OF THE NAVY RESPONSE TO RECOMMENDATIONS
 AND ACTION TAKEN REGARDING DODIG DRAFT REPORT ON RAPID
  ACQUISITION AND FIELDING OF MATERIEL SOLUTIONS BY THE
          NAVY (PROJ ECT NO. D2008-DOOOAE-0247.000)

Recommendation A.I :

"We recommend th at the Assistant Secretary of the Navy (Research, Development,
and Acquis ition) revise the Assistant Secretary of th e Navy (Research,
Development, and Acqui sition memorandum. "Rapid Acquisition Processing
Update." August 1,2007, to require Program Executive Officers. when approving
acquisition strategies for all rapid deployment capability acquisitions, to: ... ..

Recommendation A.I .a:

"Limit to the number of items required for low-rate initial production th e
procurement oritems needed to satisfy the immediate quantity in the urgent needs
request, in accordance with section 806 of PubJic Law 107-314, "Rapid
Acquisition and Deployment Procedures," December 2, 2002, regardless of
funding leve l."

Recommendation A. l.b :

"Require acquisition managers to provide written justification when the planned
procurement of rap id deployment capability items to satisfy the immediate urgent
need is expected to exceed 10 percent of total planned production, in accordance
with section 2400 of title 10. United States Code, "Low-Rate Initial Production of
New Systems,"

DON Comments:

Navy does not Concur. The 000 IG Finding A is that Navy PEOs allowed
acquisit ion managers to procure RDC program quantities in excess of a 10% low
rate initial production (LRl P) limit. One DoD IG recommendation is for written
justification when ROC LRlP is expected to exceed the 10% limit in accordance
with section 2400 of title 10. United States Code. "Low-Rate Initial Production of
New Systems_ However, the DoD IG inserts a reference to Section 2400 of 10
U.S_C in their findings/recommendations when there's no reference to Section
2400 of 10 U.S.C. in Section 806 of Public Law 107-3 14.

The 000 IG Finding(s) and Recommendation(s) do not apply to RDCs because
none of the Rapid Deployment Capability (ROC) programs is a 'major system' or
'major defense acquisition program' as defined by section 2400, secti on 2432,




                                                    44
subsection (5) of secti on 2302. and section 2302d, of tit le 10, U. S. Code. Section
806 of Public Law 107-314 does not reference secti on 2400 of title 10, U. S. Code.


Recommendation A.I.c:

··Enforce the requirement for acquisition managers to document how the
procurement quantities tic to th e threat that is driving the urgent needs request.'"

DON Comments:

Navy concurs. Navy recogn izes the importance of properly balancing
procurement quantities sufficient to meet the urgent need without creating
unn ecessary excess inventory. We agree with thi s recommendation and we will
consider proper implementation policy in the next update of the SECNA VINST
5000.20


Recommendation A.2 :

··We recommend that the Assistant Secretary of the Navy (Research, Development,
and Acquisition) revise Secretary of th e Navy Instruction 5000.20 ,
" Imple mentation and Operation of the Defense Acquisition System and the Joint
Capabilities Integrat ion and Development System," October 16, 2008, to
reference the revised policy on rapid deployment capability acqui sition quantities
resu lting from Recommendation A. I.'·

DO    Comments:

Navy partially concurs. The 000 IG Findi ng(s) and Recommendation(s) do not
apply to ROCs because none of the Rapid Deployment Capability (RDC)
programs is a 'major system" or ' major defense acq ui siti on program' as defined by
section 2400, section 2432, subsection (5) of section 2302, and section 2302d, of
title 10. U. S. Code. Section 806 of Public Law 107-314 does not reference
section 2400 of title 10. U. S. Code. As this sec ti on does not apply , this language
will not bc added to the Navy Instruction. We are reviewing and discussing the
next revision of the stated instruction for inclusion of appropriate material
regarding tyi ng the procu rement quantities to the threat.


Recommendation A.3:
" We recommend that the Assistant Secretary of the Navy (Research, Development,
and Acquisition) direct Navy acq uisition officials to seek a waiver of low· rate




                                                       45
initi al production quantity lim itations from the Secretary of Defense authorizing
thcm to procure rapid deployment capab ili ty equipment when the equi pment is
urgently nceded to eliminate a capability deficiency that has resulted in combat
fata li ties. in accordance with section SII ofPubJic Law 108-375, "Rapid
Acquisit ion Authority to Respond to Combat Emergencies," October 28, 2004."

DON Comments:

Nav y docs not Concur. We do not agree that the DoD IG Finding(s) and
Recommendation(s) apply to RDCs because none ofthe Rapid Deployment
Capabili ty (ROC) programs is a 'major system' or 'major defense acquisition
program' as defined by section 2400, section 2432, subsecti on (5) of section 2302.
and section 2302d, of title 10, U. S. Code. Plus, Section 806 of Public Law 107-
3 14 does not reference secti on 2400 of title 10, U. S. Code. We do not agree that
such a wa iver of low-mlc initial production quanti ties is required.


Recommendation B. I.a. l :

"We recommend that the Assistant Secretary of the Navy (Research, Development,
and Acquisition) include in the planned Secretary of the Navy Instruction on the
urgent needs process guidance and procedures for streamlining and imp lementing
acq uis ition strategy planning elements required in the Secretary of the Navy
Instruction 5000 .2D, "Implementation and Operation of th e Defense Acquisition
System and the Joi nt Capabilities Integration and Development System,:" October
16. 2008, to fully meet the intent of Public Law 107-314, "The Bob Stump
Nationa l Defense Authorization Act for Fisca l Year 2003," which requires DOD
to develop procedures for rapidly acquiring, demonstrating, and deploying items to
meet urgent needs.

nON Comments:

Navy concurs in part. We arc currently developing revisions for the Secretary of
the Navy Instruct ion 5000.20. Definition of the urgent needs process and
procedures are being considered for incorporation in this revision.


Recommendation B.I.a.2:

"We recommend that the Assistant Secretary of the Navy (Research. Development.
and Acqu isition) include in the planned Secretary of the Navy Instruction on the
urgent needs process guidance and procedures for making the transiti on from
acquisition effons to meet urgent needs to acquisition programs of record, as the




                                                      46
Acting Assistant Secretary of the Navy (Research. Development, and Acquisition)
disc ussed in the memorandum, "Updated Rapid Deployment Capability Execution
Guida nce for Subnet Relay an d High Frequency Internet Protocol. Automatic
Identification System. Commercial Broadband Satellite Program and Expanded
Maritime Intercepti ons Operation," April 24, 2008."

DON Comments:

Navy concurs. Appropriate language supporting this recommendation has been
su bmitted and is being considered in the rewrite of the next iteration of the stated
instruction.


Recommendation B. I .b:

"We recommend that the Assistant Secretary of the Navy (Research, Development,
and Acqu isi tion) include in the planned Secretary of the Navy Instruction on the
urgent needs process a requirement that Program Executive Officers approve or
disapprove acqu isiti on strategies submitted by acquisition managers within 90
     or
days receiving a rapid development capabili ty in itiation memorandum."

DON Comments:

Navy concurs. We agree with the recommended requirement and appreciate the
necessi ty for coordinati on and awareness of planned rapid acqui sitions between
PMs. PEDs, and acquisit ion and requirements managers.


Recol1unendation B.2:

" We recommend that the Ass istant Secretary oflhe Navy (Research, Development,
and Acqui sition).establish and maintai n a lessons learned database for acquisition
managers to enhance th eir planni ng and execution of acquisition strategies 10 meet
urgellt needs req uests:"

DON Comments:

Navy concurs in part. We are assess ing the need for thi s infonnalion and the
resou rces required to support this recommendation. To aid in providin g visibility
of previous urgent needs response acti ons to acqu isition managers, we are
developi ng an on lin e tracking system that will provide access to previous urgent
needs response info nnation and documents.




                                                      47
Recom mendation C:

"We recommend that the Assistant Secretary of the Navy (research, Development,
and Acqui sition) revise the Secretary ofthe Navy Instruction 5000.2D,
" Imp lementation and Operation of the Defense Acquisition System and the Joint
Capabil iti es Integration and Development System," October J 6, 2008, to require
program sponsors and acqui sition managers to request the Commander,
Operational Test and Evaluation Force to perform quick reaction assessments of
equipment that the Navy is acquiring through the rapid development and
deployment process."

DON Comments:

Navy concurs in part: For those lime sensitive operational needs which can be
cHectively addressed through the RDDe process. Navy concurs performance ofa
Qu ick Reaction Assessment by th e OTA, as coordinated with the program sponsor
and acq uis iti on manager. should be considered in the RDDe time line and goa ls
for rapid response, as appropriate. In additi on. representati on from the test and
eva luation com munity is now part of the velti ng process for urgent needs.




                                                    48
This Page Left Blank Intentionally
